        REPORT ON THE
   CITY OF SAN FRANCISCO’S
USE OF FEDERAL TRANSIT FUNDS
     Federal Transit Administration

     Report Number: AV-2008-071
     Date Issued: August 20, 2008
U.S. Department of                       The Inspector General   Office of Inspector General
Transportation                                                   Washington, DC 20590
Office of the Secretary
of Transportation




August 20, 2008


The Honorable Tom A. Coburn, M.D.
United States Senate
Washington, DC 20510

Dear Senator Coburn:

This is in response to your January 2008 request that we examine the San Francisco
city government’s use of Federal transit funds appropriated for the city’s municipal
transit system (Muni). Specifically, you expressed concern that the city may have
used Federal funds intended to support public transportation for improper purposes,
such as lobbying activities. Federal regulations prohibit the use of Federal funds for
such activities.

To address your concerns, we met with officials from the Federal Transit
Administration’s (FTA) San Francisco Regional Office; city government, including
the mayor’s office; and the San Francisco Municipal Transportation Agency, which
operates Muni. We also met with officials from the certified public accounting firm
that audits Muni’s financial statements. To determine whether the city was using
Federal transit grant funds for unauthorized purposes, such as lobbying, we examined,
among other things, FTA policies and procedures related to application, approval,
funding, and oversight of these funds; Muni’s internal control system for
administering them; and related expenditures and transactions.

In summary, we found no evidence that Federal transit funds were used for
unauthorized purposes. In our review of Muni’s accounting records, we found that
Muni used funds from its operating budget, a non-Federal source of funds, to
reimburse the mayor’s office for activities and staff positions related to Muni’s
mission. We also found that both FTA and Muni have effective controls to ensure
proper use of Federal transit funds. The results of our review are discussed below and
further detailed in the enclosed briefing, which we provided to your staff on
July 21, 2008.



Report Number AV-2008-071
                                                                                                                       2


Federal Funds Were Used for Appropriate, Muni-Related Purposes
Muni has two separate accounts for its capital and operating budgets.

    • The capital budget contains the cost of projects covered by Federal grants.
      Projects eligible for FTA grant funds include the acquisition, construction,
      and maintenance of transit facilities and equipment. FTA grant funds
      cannot be used for normal operating assistance, such as salaries, except
      where activities are directly related to the performance of a grant.

    • The operating budget includes departmental salaries, materials and
      supplies, and work orders (i.e., requests for services from other
      departments). Local or state funds are used to pay for expenditures in the
      operating budget. Sources of operating funds include sales of parking
      permits, collection of fines and fees, receipts from fare boxes and parking
      garages, sales of transit passes, collections from the city’s general fund, and
      state sales taxes.

We found that Muni used funds from its operating budget for the following
appropriate purposes:

    • To reimburse the mayor’s office more than $200,000 for lobbying activities
      carried out on Muni’s behalf for fiscal years 2006 and 2007.

    • To pay salaries and estimated fringe benefits totaling approximately
      $195,000 in fiscal year 2008 for positions in the mayor’s office or other city
      departments; these positions were related to Muni’s mission.

We randomly sampled 77 capital project expenditures with a total value of
$6.16 million and found all to be eligible capital project costs. These include
procurement of standard hybrid-electric diesel buses, salaries for Muni project
engineers, and retrofit of transit vehicles.


FTA’s and Muni’s Internal Controls Are Adequate To Ensure Proper Use
of Federal Transit Funds
FTA relies on a variety of methods to oversee transit funds. These include triennial
reviews, 1 financial management oversight reviews, annual risk assessments, grantee
assurances, and single audits—audits conducted under Federal guidelines by
independent auditors. Muni’s 2007 triennial review and single audit found no
evidence that Muni used Federal funds for lobbying.


1
    The triennial review is one of FTA’s management tools for examining grantee performance and adherence to current FTA
    requirements and policies. The review currently examines 23 areas, such as legal, financial, technical, and lobbying.


Report Number AV-2008-071
                                                                                 3


In addition to properly separating its capital and operating expenses, Muni ensures
that employees administering these budgets have adequate separation of duties for
posting transactions and making payments.

Based on the results of our review, we are making no recommendations. We
conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. If I can answer any questions, please contact me at (202) 366-1959 or
Theodore Alves, Deputy Inspector General, at (202) 366-6767.

Sincerely,




Calvin L. Scovel III
Inspector General

Enclosure

cc: FTA Administrator




Report Number AV-2008-071
                                                        Enclosure
                                                      Page 1 of 13



      Review of the City of San Francisco’s
      Use of Federal Transit Funds
       Office of Inspector General
       Briefing for the Staff of Senator Tom Coburn
       July 21, 2008




Report Number AV-2008-071
                                                                                      Enclosure
                                                                                    Page 2 of 13




      Congressional Request

           In a letter dated January 31, 2008, Senator Tom Coburn—Ranking
            Member of the Senate Subcommittee on Federal Financial
            Management, Government Information, Federal Services, and
            International Security—requested that we review the San Francisco
            city government’s use of Federal transit funds for the city’s bus and
            transit system, Muni.


           Specifically, Senator Coburn asked that we determine if the city had
            used those funds for unauthorized purposes, including directly paying
            for lobbying activities or replacing city transportation funds diverted for
            lobbying activities (see slide 13 for audit scope and methodology).


           Senator Coburn raised his concerns following a newspaper report that
            the mayor’s office was using transit funds for the city’s lobbying
            activities, among other things. Federal regulations prohibit the use of
            Federal funds for such activities.



Report Number AV-2008-071
                                                                                    Enclosure
                                                                                  Page 3 of 13




      Background

           The Federal Transit Administration (FTA) provides grants to the
            city for eligible transit capital projects.

                 Projects eligible for FTA grant funds include the acquisition,
                  construction, and maintenance of facilities and equipment used in
                  transit.

                 FTA generally provides 80 percent of a project cost, with state and
                  local funds making up the difference.

                 FTA funds cannot be used for lobbying activities or normal
                  operating assistance, such as salaries, except where activities are
                  directly related to the performance of a grant.

                 For fiscal years (FY) 2005, 2006, and 2007, the city expended
                  Federal funding of $71 million, $68 million, and $77 million,
                  respectively, for FTA-funded projects.

Report Number AV-2008-071
                                                                                             Enclosure
                                                                                           Page 4 of 13




      Summary of OIG Results:
           We found no evidence that the city was using Federal transit
            funds for unauthorized purposes. We also found that FTA and
            Muni controls were adequate to ensure proper use of Federal
            transit funds for Muni.
           In our examination of Muni’s accounting records, we found that Muni used
            funds from its operating budget, a legitimate source of funds, to:
                 reimburse the mayor’s office more than $200,000 for lobbying activities carried
                  out on Muni’s behalf for FYs 2006 and 2007.
                 make payments of approximately $195,000 in FY 2008 for positions in the
                  mayor’s office or other city departments that were related to Muni’s mission.
           We randomly sampled 77 capital project expenditures valued at
            $6.16 million and found all to be eligible capital project costs. These
            included salaries for project engineers, retrofit of transit vehicles, and
            procurement of hybrid-electric diesel coaches.
           In our examination of FTA and Muni oversight, we found:
                 FTA uses an effective review system to ensure Muni’s compliance with Federal
                  regulations.
                 Muni ensures proper separation of its capital and operating budgets and related
                  staff functions.


Report Number AV-2008-071
                                                                                Enclosure
                                                                              Page 5 of 13




      Muni Uses Operating Funds To Pay for
      Lobbying Activities

            Muni uses funds from its operating budget to reimburse the
             mayor’s office for its share of lobbying services expenditures.
                  For FYs 2006 and 2007, Muni reimbursed the mayor’s office
                   $60,000 and $140,890, respectively. Muni expects to reimburse
                   the mayor’s office $140,890 for FY 2008.

            The mayor’s office coordinates lobbying activities for city
             departments, including Muni.

            The city contracts with lobbying firms in Sacramento, CA, and
             Washington, DC, to carry out these activities.

            Lobbying activities include:
                  obtaining state and Federal funding for capital projects and
                   operations.
                  contacting Federal legislators and regulatory agencies.
                  testifying before legislative and regulatory committees.
Report Number AV-2008-071
                                                                                   Enclosure
                                                                                 Page 6 of 13


      Muni Uses Operating Funds To Pay
      for Positions Assigned to the Mayor’s Office
      or Other City Departments

           Muni uses funds from its operating budget to pay its share of
            salaries for positions assigned to the mayor’s office or other city
            departments for services related to Muni’s mission.
           For FY 2008, Muni paid more than $195,000 for its share of
            salaries and estimated fringe benefits for positions assigned to
            the mayor’s office, or other city departments (see table at
            slide 7).
           As of February 8, 2008:
                 The Deputy Chief of Staff for Transit Issues and the Executive
                  Secretary positions moved from the mayor’s office to Muni.
                 The Deputy Chief of Staff position became vacant.

           As of June 26, 2008:
                 Muni and mayoral staff are negotiating the extent of Muni’s share of
                  salaries for the City Build Director and Special Events Coordinator,
                  both in the Office of Economic and Workforce Development.
                 Muni has requested that its share be reduced from 100 percent to
                  25 percent (from $245,300 to $61,325).
Report Number AV-2008-071
                                                                                                                                                Enclosure
        Actual or Planned Muni Expenditures for                                                                                               Page 7 of 13

        Positions Assigned to the Mayor’s Office
        or Other City Department –
        City’s FY 2007-2008 Budget

                                  Title/Position Function                                           Muni Share of Salary and Estimated
                                                                                                              Fringe Benefits
                                                                                                       City’s FY 2007-2008 Budget
                                                                                                            (July 1 to June 30)

        Mayor’s Deputy Chief of Staff for Transit Issues –                                 $91,200: Muni paid 60% of the Deputy Chief of
        Coordinates transit issues between Muni and the mayor’s office.                    Staff’s salary.

        Executive Secretary - Supports Deputy Chief of Staff for Transit                   $30,800: Muni paid 60% of the Executive
        Issues.                                                                            Secretary’s salary.
        Greening Director – Focuses on beautifying city streets.                           $39,400: Muni paid 28% of the Greening
                                                                                           Director’s salary.

        Climate Protection Initiatives Director – Implements                               $33,800: Muni paid 40% of the Climate
        Proposition A requiring a Climate Protection Plan, which includes                  Protection Initiatives Director’s salary.
        encouraging bicycle use and reducing carbon emissions.

                                                Muni’s Total Share of Salaries             $195,200
                                                and Estimated Fringe Benefits
        Special Events Coordinator – Coordinates transit/traffic routes                    $130,900*: Muni in negotiation with mayor’s
        and street closures during special events.                                         office to reduce its share of the Special Events
                                                                                           Coordinator’s salary from 100% to 25%.
        City Build Director – Focuses on placing low-income residents                      $114,400*: Muni in negotiation with mayor’s
        into construction jobs.                                                            office to reduce its share of the City Build
                                                                                           Director’s salary from 100% to 25%.
       Note: Dollar figures rounded to nearest hundred dollars.
       *As of June 26, 2008, Muni had not reimbursed the Office of Economic and Workforce Development for these two positions.

Report Number AV-2008-071
                                                                                    Enclosure
                                                                                  Page 8 of 13




      Muni Used Federal Transit Funds
      To Pay for Capital Project Expenditures

            Muni uses funds from its capital budget (FTA funds) to pay for
             its capital project expenditures.
            For the period January 2007 through March 2008, we
             randomly sampled 77 of 5,726 capital project expenditures
             valued at $6.16 million of the $44.2 million in total capital
             project expenditures and verified that the city did not use FTA
             funds to pay for unallowable costs, such as lobbying.
            Expenditures for capital projects included:
                  $4.2 million for procurement of 55 standard hybrid-electric diesel
                   coaches.
                  $13,331 in retrofit costs of ninety 60-foot diesel coaches.
                  $19,885 in salaries of Muni employees, such as engineers,
                   working directly on the Third Street Light Rail Transit Project.



Report Number AV-2008-071
                                                                                                                              Enclosure
                                                                                                                            Page 9 of 13




      FTA Oversight Was Adequate To Ensure
      Proper Use of Federal Transit Funds
            We found that FTA oversight was adequate to ensure proper
             use of Federal transit funds for Muni.
            To ensure the city uses FTA grant funds only for authorized
             purposes, FTA relies on triennial and financial management
             reviews1 and single (independent) audits:
                   Triennial reviews examine statutory and administrative compliance
                    in 23 areas, such as lobbying for recipients of Federal grants in
                    excess of $100,000. These reviews must, among other things:
                         certify compliance with prohibition against use of Federal funds for
                          lobbying.
                         disclose any use of non-Federal funds for this purpose.
                   The FY 2007 triennial review found that Muni:
                         complied with the preclusion against the use of Federal funds for
                          lobbying.
                         provided support for 15 FTA grant draw-downs but needed additional
                          time to find the required supporting documents.

      1 FTA and external contractors conduct triennial reviews. Contractors conduct financial management reviews for FTA.
Report Number AV-2008-071
                                                                                            Enclosure
                                                                                         Page 10 of 13



      FTA Oversight Was Adequate To Ensure
      Proper Use of Federal Transit Funds
      (continued)
                 Financial Management Oversight Reviews (FMO):       A triennial
                  review or an annual risk assessment may trigger an FMO review,
                  which is a more in-depth analysis of the grantee.

                 An FMO Review of Muni conducted in FY 2003 found:
                      no indication that Muni used Federal funds for lobbying.
                      more than a 10-percent increase, however, in Muni’s indirect cost rate
                       for FY 2000 without required FTA approval.

                 A 2007 FMO review of Muni’s indirect cost rate for FY 2004 found:
                      the rate still too high;
                      the methodology used to calculate the rate in non-compliance with
                       OMB-87 and Federal regulations.
                      the need for FTA to suspend future funding of indirect charges until
                       Muni complied.

                 On May 5, 2008, FTA suspended funding of indirect charges from
                  FY 2005 onward until Muni became compliant.
                 As of the date of our review, FTA and Muni were in discussions to
                  resolve this issue.
Report Number AV-2008-071
                                                                                     Enclosure
                                                                                  Page 11 of 13



     FTA Oversight Was Adequate To Ensure
     Proper Use of Federal Transit Funds
     (continued)
                  Single audits are conducted under Federal guidelines by
                   independent auditors. The purpose of single audits is to determine
                   whether the grantee (Muni) is complying with provisions of laws,
                   regulations, contracts, and grants pertaining to Federal awards.
                   The Office of Management and Budget Circular A-133 details the
                   compliance requirements for single audits.

                  The independent audit firm, KPMG LLP, performed single audits of
                   Muni. These audits found that, for FY 2006 and FY 2007, Muni
                   had a control environment that decreased the risk of fraud.




Report Number AV-2008-071
                                                                                                Enclosure
                                                                                             Page 12 of 13


      Muni’s Internal Controls Were Adequate
      To Ensure Proper Use of Federal
      Transit Funds

           We found that Muni’s internal controls were adequate to ensure the
            proper use of Federal transit funds.
           Muni has two distinct accounts, which separate the capital budget from
            the operating budget; each account has its own set of codes.
                 Capital Budget - The capital budget contains the cost of projects covered by
                  Federal grants, including the cost of construction, equipment, and rolling
                  stock. Muni staff use FTA funds to pay for expenditures in the capital budget.
                 Operating Budget - Items in the operating budget include departmental
                  salaries, materials and supplies, and work orders (i.e., requests for services
                  from other departments). Muni staff use local and/or state funds to pay for
                  expenditures in the operating budget.
                 Source of operating funds include sales of parking permits, collection of fines
                  and fees, receipts from fare boxes, parking garage revenues, sales of transit
                  passes, collections from the city’s general fund, and state sales tax revenues.
           In addition to properly separating its capital and operating expenses,
            Muni ensures that employees administering these budgets have
            adequate separation of duties for posting transactions and making
            payments.
Report Number AV-2008-071
                                                                                                               Enclosure
                                                                                                            Page 13 of 13




      Audit Scope and Methodology
           We conducted audit work between February and June of 2008, and reviewed data from
            FY 2005 to FY 2008. We conducted this review in accordance with Generally Accepted
            Government Auditing Standards prescribed by the Comptroller General of the United
            States.
           To obtain data, we interviewed officials from:
                 FTA, Region IX, San Francisco
                 San Francisco Municipal Transportation Agency (which operates Muni)
                 Office of the Mayor, City and County of San Francisco
                 Office of the Controller, City of and County of San Francisco
                 San Francisco Ethics Commission
                 KPMG
           We reviewed:
                 Federal legislation and regulations covering permissible and non-permissible costs for
                  Federal grants
                 FTA policies and procedures related to application, approval, funding, and oversight of
                  Federal transit grants
                 Type and dollar amount of active FTA grants to Muni
                 Oversight by Offices of Mayor and Controller
                 Muni’s internal control system
                 Report relevant to the use of Muni funds for positions in the mayor’s office
                 Muni’s single audits and supporting documents for FY 2005 through FY 2007
           For the period January 2007 through March 2008, we tested a statistical sample of
            77 financial transactions selected from a universe of 5,726 capital project expenditures to
            determine if the city was using funds for unauthorized purposes, such as lobbying.
Report Number AV-2008-071
